No. ______
IN THE

Supreme Court of the United States
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO, as
representative for the Commonwealth of Puerto Rico; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO RICO, as representative for the Puerto Rico
Highways and Transportation Authority,
Debtors,
____________________
HON. WANDA VÁZQUEZ-GARCED (in her official capacity); THE PUERTO RICO FISCAL
AGENCY AND FINANCIAL ADVISORY AUTHORITY,
Plaintiffs,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO; JOSÉ B.
CARRIÓN, III; ANDREW G. BIGGS; CARLOS M. GARCÍA; ARTHUR J. GONZÁLEZ; JOSÉ R.
GONZÁLEZ; ANA J. MATOSANTOS; DAVID A. SKEEL, JR.; NATALIE A. JARESKO,
Respondents.
OFFICIAL COMMITTEE OF UNSECURED CREDITORS,
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

____________________

APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI
____________________
LUIS C. MARINI-BIAGGI
CAROLINA VELAZ-RIVERO
MARINI PIETRANTONI MUNIZ LLC
250 Ponce de Leon Ave.
Suite 900
San Juan, Puerto Rico 00918
(787) 705-2171

JOHN J. RAPISARDI
WILLIAM J. SUSHON
Counsel of Record
O’MELVENY & MYERS LLP
Seven Times Square
New York, New York 10036
(212) 326-2000
wshushon@omm.com

Intervenor.

PETER M. FRIEDMAN
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5300
Attorneys for Plaintiffs Hon. Wanda Vázquez-Garced (in her official capacity);
The Puerto Rico Fiscal Agency and Financial Advisory Authority

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI
To: Justice Stephen G. Breyer, Circuit Justice for the United States Court of
Appeals for the First Circuit:
Under this Court’s Rules 13.5 and 22, Applicants the Governor of the
Commonwealth of Puerto Rico Honorable Wanda Vázquez-Garced and the Puerto
Rico Fiscal Agency and Financial Advisory Authority (“AAFAF” and together with
the Governor the “Applicants”), request an extension of thirty days to file a petition
for writ of certiorari. The petition will seek to challenge the First Circuit’s decision
in Hon. Wanda Vázquez-Garced, in her official capacity and the Puerto Rico Fiscal
Agency and Financial Advisory Authority v. The Financial Oversight and
Management Board, 945 F.3d 3 (1st Cir. 2019), a copy of which is attached hereto as
Appendix A. The August 27, 2018 Corrected Opinion and Order Granting in Part
Defendants’ Motion to Dismiss the Complaint from the United States District Court
for the District of Puerto Rico that was the subject of that appeal is attached hereto
as Appendix B. In support of this application, the Applicants state:
1.

The First Circuit issued its opinion on December 18, 2019. Without an

extension, the petition for a writ of certiorari would be due on March 17, 2020. With
the requested extension, the petition would be due on April 16, 2020. This Court’s
jurisdiction will be based on 28 U.S.C. § 1254(1). As Supreme Court Rule 13.5
requires, Applicants are filing this application at least ten days before the current
due date.

1

2.

This case is a serious candidate for review. On June 30, 2016, the United

States Congress enacted the Puerto Rico Oversight, Management, and Economic
Security Act (“PROMESA”) to “stabilize Puerto Rico’s economy by establishing
oversight of the Government’s budget and fiscal policies and by providing a
mechanism for the Commonwealth to restructure its debts.” 48 U.S.C. § 2101.
PROMESA created the Financial Oversight and Management Board for Puerto Rico
(the “Board”) “to provide a method for [Puerto Rico] to achieve fiscal responsibility
and access to the capital markets,” and “to assist the Government of Puerto Rico in
reforming its fiscal governance.” 48 U.S.C. §§ 2121(a), 2194(n)(3). While PROMESA
confers important fiscal-management powers on the Board, it also reserves political
authority to the existing territorial Government and ensures that the Government
may continue to exercise the policymaking authority that is crucial to Puerto Rico’s
sustained home rule Id. § 2163; see also id. § 2145(a), (b)(3).
This dispute arises from the development of the PROMESA-mandated 2019
fiscal plan and budget for the Commonwealth of Puerto Rico. Between January 24,
2018, and April 5, 2018, former Governor Rosselló1 submitted four versions of a
proposed Commonwealth fiscal plan for fiscal year 2019 to the Board for its approval.
(Appendix B at 5). The Board rejected each proposed fiscal plan and on April 19,
2018, the Board certified its own fiscal plan for the Commonwealth (the “April 2018
Board Fiscal Plan”). Id. On June 29, 2018, the Legislature passed and the former
Governor signed a territorial budget for the Commonwealth for fiscal year 2019.

On August 2, 2019, former Governor Ricardo Rosselló resigned, and on August 7, 2019, the
Honorable Wanda Vázquez Garced was sworn in as Governor.
1

2

(Appendix B at 8). A day later, the Board certified its own Commonwealth budget,
which includes several joint resolutions restricting the Government’s spending. Id.
In a communication to the Oversight Board and federal government officials
dated May 6, 2018, former Governor Rosselló objected to certain provisions of the
April 2018 Board Fiscal Plan and provisions of the joint resolutions in the budget as
non-binding recommendations under section 205(a) of PROMESA. (Appendix B at 6).
That communication constituted a formal rejection of each of the provisions identified
in the letter under section 205(b) of PROMESA. 48 U.S.C. § 2145(b).
On July 5, 2018, former Governor Rosselló and AAFAF filed a complaint
challenging provisions of the fiscal plan that incorporated these rejected
recommendations

and

asserting

that

compliance

with

those

rejected

recommendations cannot be mandated by a fiscal plan or a budget imposed
unilaterally by the Board. The complaint also challenged the Board’s suspension of
the elected Government’s powers to authorize the reprogramming or extension of
appropriated funds from prior fiscal years. On July 12, 2018, the Board moved to
dismiss the complaint, which the District Court granted in part and denied in part.
In addressing the Board’s arguments for dismissal, the court held that PROMESA
section 201(b)(1)(K) “allows the Oversight Board to make binding policy choices for
the Commonwealth, notwithstanding the Governor’s rejection of Section 205
recommendations.” (Appendix B at 25).
The Applicants appealed under PROMESA section 306(e)(3) which permits
appeals of interlocutory orders or decrees entered in a proceeding under Title III of

3

PROMESA if there is no controlling Supreme Court or relevant Circuit authority, the
issue is of public importance, or an immediate appeal of the aspects of its decision
address claims that may materially advance the progress of the case. 48 U.S.C. §
2166(e)(3). The issues on appeal were: (i) whether the Board may mandate in a
certified fiscal plan and budget prior recommendations that the Governor specifically
rejected under PROMESA section 205(b); and (ii) whether certification of a budget
under PROMESA section 202(e) precludes reprogramming of previously-authorized
expenditures from prior years. On appeal, the First Circuit affirmed the District
Court, holding that: (i) when a Governor rejects a Board-proposed policy
recommendation under the procedure described in PROMESA section 205, the Board
does not lose any “power that it otherwise might have had to include that policy in
the fiscal plan (or budget)”; and (ii) because PROMESA section 202(e)(4)(C) precludes
the Government from “reprogramming funds from prior fiscal years except to the
extent such reprogrammed expenditures are authorized in a subsequent budget,” the
bar on reprogramming the Board included in its fiscal plan and budget is valid and
consistent with PROMESA. In re Fin. Oversight & Mgmt. Bd. for Puerto Rico, 945
F.3d 3 at 7–8. These interpretations of PROMESA and the Board’s powers under it
are in error and infringe on Puerto Rico’s framework for self-government, specifically
preserved in PROMESA. 48 U.S.C. § 2163; see also id. § 405(n)(1), (3), (5).
The First Circuit’s decision warrants this Court’s review because the federal
issue in this case, the correct interpretation of the Board’s powers under PROMESA,
is an important question of first impression that bears on the continued functions of

4

the Puerto Rico government as it undergoes restructuring and raises important
issues concerning Puerto Rico’s autonomy and self-governance.
3.

Good cause exists for an extension of time.

Sup. Ct. R. 13.5. The

Applicants are actively involved in Puerto Rico’s ongoing PROMESA Title III
restructuring which requires significant time and resources from the Applicants. The
Board sued Applicants on July 3, 2019. See Fin. Oversight & Mgmt. Bd. v. Hon.
Wanda Vázquez et. al. No. 19-393-LTS [ECF No. 1] (the “Act 29 Complaint,” attached
hereto as Exhibit C). The Act 29 Complaint implicates several of the same questions
at issue in this appeal, including the interpretation and impact of PROMESA section
204(c) and the use of reprogrammed funds by the elected Government of Puerto Rico.
That litigation is ongoing and briefing on the Board’s motion for summary judgment
only concluded on February 24, 2020. The parties are now preparing for a hearing
on the motion for summary judgment scheduled for March 4, 2020. The briefing and
preparation for that hearing require significant time and resources from the
Governor, AAFAF, and their litigation teams.

Additionally, there are multiple

adversary proceedings ongoing in the Title III restructuring of the Employees
Retirement System of the Government of the Commonwealth of Puerto Rico, a Puerto
Rico governmental entity. In re the Emps. Ret. Sys. of the Gov’t of the Commonwealth
of Puerto Rico, 17-bk-3566. There are numerous depositions this month in those
adversary proceedings, preparation for which also requires the time and resources of
the Governor, AAFAF, and their litigation team. In sum, the heavy demands of
engaging in Puerto Rico’s ongoing restructuring, and related litigation, in addition to

5

the regular government workload of the Governor and AAFAF, have occupied much
of the ninety days afforded to Applicants to file a petition for writ of certiorari.
Applicants seek a thirty-day extension to cope with these demands.
Conclusion
For the foregoing reasons and good cause shown, Applicants respectfully
request that this Court grant this application for an extension of time to file a petition
for writ of certiorari.
Dated: March 3, 2020

Respectfully Submitted,

LUIS C. MARINI-BIAGGI
CAROLINA VELAZ-RIVERO
MARINI PIETRANTONI MUNIZ LLC
250 Ponce de Leon Ave.
Suite 900
San Juan, Puerto Rico 00918
(787) 705-2171

JOHN J. RAPISARDI
WILLIAM J. SUSHON
Counsel of Record
O’MELVENY & MYERS LLP
Seven Times Square
New York, New York 10036
(212) 326-2000
wshushon@omm.com

PETER M. FRIEDMAN
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5300
Attorneys for Plaintiffs Hon. Wanda Vázquez-Garced (in her official capacity);
The Puerto Rico Fiscal Agency and Financial Advisory Authority

6

Appendix A

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 1 of 11

Desc: Main

United States Court of Appeals
For the First Circuit

No. 18-2154
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, as representative for the Commonwealth of
Puerto Rico; THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, as representative for the Puerto Rico Highways
and Transportation Authority,
Debtors.

HON. WANDA VÁZQUEZ-GARCED (in her official capacity);* THE
PUERTO RICO FISCAL AGENCY AND FINANCIAL ADVISORY AUTHORITY,
Plaintiffs, Appellants,
v.
THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR PUERTO RICO;
JOSÉ B. CARRIÓN, III; ANDREW G. BIGGS; CARLOS M. GARCÍA;
ARTHUR J. GONZÁLEZ; JOSÉ R. GONZÁLEZ; ANA J. MATOSANTOS;
DAVID A. SKEEL, JR.; NATALIE A. JARESKO,
Defendants, Appellees,
OFFICIAL COMMITTEE OF UNSECURED CREDITORS,
Intervenor, Appellee.
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Laura Taylor Swain, U.S. District Judge**]
Pursuant to Fed. R. App. 43(c)(2), Hon. Wanda Vázquez-Garced
is substituted for former Governor Ricardo Rosselló Nevares.
*

Of the
designation.
**

Southern

District

of

New

York,

sitting

by

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 2 of 11

Desc: Main

Before
Howard, Chief Judge,
Torruella and Kayatta, Circuit Judges.
Peter Friedman, with whom John J. Rapisardi, Elizabeth L.
McKeen, O'Melveny & Myers LLP, Luis C. Marini-Biaggi, Carolina
Velaz-Rivero, and Marini Pietrantoni Muñiz LLC were on brief, for
appellants.
Timothy W. Mungovan, with whom John E. Roberts, Guy Brenner,
Martin J. Bienenstock, Stephen L. Ratner, Mark D. Harris, Kevin J.
Perra, and Proskauer Rose LLP were on brief, for defendants,
appellees.
December 18, 2019

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 3 of 11

KAYATTA, Circuit Judge.

Desc: Main

The Puerto Rico Oversight,

Management, and Economic Security Act ("PROMESA") established a
board known as the Financial Oversight and Management Board for
Puerto Rico ("the Board").1

Under PROMESA sections 201 and 202

("Sections 201 and 202"),2 the Board developed and certified both
a fiscal plan for the Commonwealth and a Commonwealth budget for
fiscal year 2019-2020.

Several provisions of both the fiscal plan

and the budget elicited objections from the Governor of Puerto
Rico,

who,

together

with

the

Puerto

Rico

Fiscal

Agency

and

Financial Advisory Authority (a Commonwealth entity), filed a
complaint against the Board in the United States District Court
for the District of Puerto Rico, seeking a declaration striking
those provisions.
One of the provisions to which the Governor objected
barred "reprogramming": i.e., spending during the 2019-2020 fiscal
year money that had been authorized but not actually spent in a
prior fiscal year.
Governor

argued

In challenging the bar on reprogramming, the
that

because

the

Board

had

unsuccessfully

recommended that the Governor agree to such a bar, the Board could
not thereafter adopt the bar as binding over the Governor's
objection.

In

ruling

on

1

48 U.S.C. § 2121.

2

48 U.S.C. §§ 2141–2142.

the

Board's

- 3 -

motion

to

dismiss

the

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 4 of 11

complaint

for

failure

to

state

a

claim,

the

Desc: Main

district

court

sustained the bar on reprogramming, deciding as a matter of law
that the Board did not surrender its powers to act unilaterally
regarding a policy proposal by first seeking agreement from the
Governor and that, in any event, the Board's "certification of a
budget

under

PROMESA

precludes

reprogramming

authorized expenditures from prior years."

of

previously-

In re Fin. Oversight

& Mgmt. Bd. for P.R., No. 18-ap-080, at 5-6 (D.P.R. Oct. 9, 2018)
(order certifying certain aspects for interlocutory appeal).

The

district court did not dismiss the complaint as it applied to
subjects

other

recommendations

than
and

the
to

Board's
bar

ability

to

reprogramming.

impose
It

rejected

nevertheless

certified for immediate appeal its dismissal of paragraphs 78 and
79

of

Count I

Count II.

of

the

Complaint

and

paragraphs 88

and

91

of

By the time of oral argument on appeal, the parties'

positions more precisely limited the scope of appeal to the legal
rulings upon which the district court relied in rejecting the
Governor's challenge to the reprogramming bar.
We accept jurisdiction over this interlocutory appeal
pursuant to PROMESA section 306(e)(3), which, among other things,
authorizes "an immediate appeal" when it "may materially advance
the progress of the case or proceeding in which the appeal is
taken."

48 U.S.C. § 2166(e)(3)(A)(iii).

The potential use by the

Government of so-called reprogrammed funds is apparently a subject
- 4 -

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 5 of 11

Desc: Main

of continuing dispute, and its resolution now will likely assist
the district court in assessing other existing and future disputes
regarding the relationship between the Board and the Governor.
I.
We review a dismissal for failure to state a claim de
novo.

Cardigan Mountain Sch. v. N.H. Ins. Co., 787 F.3d 82, 84

(1st Cir. 2015).

The reviewing court "accept[s] as true all well-

pled facts alleged in the complaint and draw[s] all reasonable
inferences in [the plaintiff's] favor."

Evergreen Partnering

Grp., Inc. v. Pactiv Corp., 720 F.3d 33, 36 (1st Cir. 2013).

A

Rule 12(b)(6) motion fails if the complaint contains "enough facts
to state a claim to relief that is plausible on its face."

Bell

Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).
A.
The Governor's argument on this appeal rests in the first
instance

on

the

Governor's

("Section 205")3 works.
submit

at

any

time

view

of

how

PROMESA

section 205

Subsection 205(a) allows the Board to

"recommendations

to

the

Governor

or

the

Legislature on actions the territorial government may take to
ensure compliance with the Fiscal Plan, or to otherwise promote
the

financial

stability,

economic

growth,

management

responsibility, and service delivery efficiency of the territorial

3

48 U.S.C. § 2145.
- 5 -

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 6 of 11

government."

Desc: Main

The rest of Section 205 contains no limitations on

the nature or substance of the recommendations that the Board may
make.
list

Subsections (a)(1)–(10) instead provide a non-exclusive
of

ten

subject

recommendations.

matters

about

which

the

Board

may

make

Subsection 205(b) then requires the Governor or

the legislature, as the case may be, to accept or reject such
recommendations and to provide explanations for rejecting any
recommendations that the territorial government otherwise could
have

agreed

to.

The

Governor

contends

that

the

Board

had

previously recommended under subsection 205(a) a prohibition on
spending reprogrammed funds, among other things, and that the
Governor rejected that recommendation.

Therefore, the Governor

reasons, the Board could not turn around and unilaterally adopt
the rejected recommendation as a binding policy in the certified
fiscal plan or budget.
This reasoning is puzzling to say the least.

There is

no language at all in Section 205 suggesting that, by first seeking
the Governor's agreement on a matter, the Board somehow loses
whatever ability it otherwise had to act unilaterally on the
matter.
allowing

The Governor points, instead, to subsection 201(b)(1)(K),
the

Board

to

"adopt

appropriate

developing and submitting a fiscal plan.

recommendations"

in

Again, though, we see

nothing in this language that precludes the Board from adopting a

- 6 -

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 7 of 11

Desc: Main

rejected recommendation if it otherwise has the power to adopt the
recommended action on its own.
Nor do we agree with the Governor's contention that we
should draw a salient negative inference from the fact that an
early version of the draft bill that became PROMESA gave the Board
broader power than it now has.

See S. 2381, 114th Cong. (2015);

House Discussion Draft, 114th Cong. (Mar. 29, 2016).

The Board's

argument here limits its asserted authority to the law as enacted,
making no claim to any broader powers considered but not enacted
by Congress.
We also reject the Governor's claim that the Board's
reading of the statute renders Section 205 a "dead letter."

There

are certainly policies and actions that can be adopted and pursued
only with the Governor's approval.

And even with respect to

matters on which the Board needs no consent, Section 205 serves as
a

reminder

that

PROMESA

favors

collaboration

when

possible.

PROMESA encourages the Board to engage in an iterative exchange
with the Governor in developing a fiscal plan and budget.

Indeed,

subsections 201(c), (d)(2), and (e)(2) call for the Governor to
prepare the first draft of a fiscal plan, while nevertheless
reserving to the Board the ultimate power to "develop and submit"
a fiscal plan, which is then deemed approved by the Governor.4

4

Section 202 contains similar provisions for budgets.
- 7 -

To

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 8 of 11

Desc: Main

rule that the Board loses its power to act unilaterally on a matter
by first seeking the Governor's agreement would be to discourage
the Board from first seeking common ground and listening to the
Governor's reaction before finally deciding to act.

Nothing to

which the Governor points persuades us to construe the statute in
such a manner.
In short, even assuming that the Board first sought the
Governor's

agreement

to

adopt

a

policy

(here

a

ban

on

reprogramming),5 the Board in doing so certainly lost no power that
it otherwise might have had to include that policy in the fiscal
plan (or budget).6
B.
As the foregoing makes clear, any evidence that the Board
recommended that the Governor adopt a ban on certain reprogramming
can make no difference to the outcome of this appeal. The relevant
question, instead, is whether the Board in the first instance
possessed the authority to impose unilaterally such a ban.

As to

that question, the Governor contends that the Board lacks such
authority

for

three

reasons:

(1) PROMESA

section 204(c)

It appears doubtful from the record before us that the Board
ever actually recommended that the Governor agree to any bar on
action concerning reprogramming.
5

The Governor does not seem to have disclosed exactly what funds
its office proposes to use for what purposes.
6

- 8 -

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 9 of 11

Desc: Main

("Section 204")7 implicitly rejects the notion of a categorical
bar to reprogramming because it allows the territorial government
to, in the Governor's words, "seek reprogramming at any time,"
albeit subject to the Board's approval; (2) the reprogramming
suspension
statutes

provisions
and

are

Article III,

contrary

to

section 18

existing

Puerto

Rico

of

Puerto

Rico

the

Constitution; and (3) the reprogramming suspension provisions are
impermissible "substantive budget resolutions."
These arguments all miss the mark. As the district court
explained, PROMESA prohibits the Governor from spending any funds
that are not budgeted regardless of whether the recommendation had
been adopted.

We quote the district court's cogent explanation:

It beggars reason, and would run contrary to
the reliability and transparency mandates of
PROMESA, to suppose that a budget for a fiscal
year could be designed to do anything less
than comprehend all projected revenues and
financial resources, and all expenditures, for
the fiscal year. Since a certified budget is
in full effect as of the first day of the
covered
period,
means
and
sources
of
government spending are necessarily rendered
unavailable if they are not provided for
within the budget. A prior year authorization
for spending that is not covered by the budget
is inconsistent with PROMESA's declaration
that the Oversight Board-certified budget for
the fiscal year is in full force and effect,
and is therefore preempted by that statutory
provision by force of Section 4 of PROMESA.
Accordingly,
the
Fiscal
Plan
language
regarding suspension of authority to approve
off-budget
reprogramming
may
well
be
7

48 U.S.C. § 2144.
- 9 -

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 10 of 11

Desc: Main

superfluous, and in any event merely has the
same effect as PROMESA's explicit provisions.
The exclusive scope of a certified budget also
makes
pellucid
the
reason
that
Section 204(c)'s
reprogramming
provision
speaks only to the then-current fiscal
year -- the budget does not make any other
resources available for reprogramming.
In re Fin. Oversight & Mgmt. Bd. for P.R., 330 F. Supp. 3d 685,
704 (D.P.R. 2018) (emphasis added).
In short, the district court concluded that PROMESA
subsection 202(e)(4)(C)

itself

precludes

the

territorial

government from reprogramming funds from prior fiscal years except
to the extent such reprogrammed expenditures are authorized in a
subsequent budget approved by the Board, and any Puerto Rico law
to the contrary is preempted by virtue of PROMESA section 4.

See

48 U.S.C. § 2103 ("The provisions of this chapter shall prevail
over any general or specific provisions of territory law, State
law, or regulation that is inconsistent with this chapter.").
Simply put, if a certified budget is to have "full force and
effect," subsection 202(e)(3)(C), there can be no spending from
sources

not

listed

in

territorial laws say.
adopted

by

the

Board

that

budget,

regardless

of

any

Here, it is undisputed that the budget
does

not

authorize

whatever

expenditures that the Governor apparently has in mind.
that

what

subsection 204(c)(1)

allows

the

Governor

to

unknown
The fact

"request"

a

reprogramming of "any amounts provided in a certified Budget"

- 10 -

Case:18-00080-LTS Doc#:67 Filed:01/13/20 Entered:01/13/20 16:33:13
Document Page 11 of 11

simply

confirms

that

the

final

reprogramming rests with the Board.

choice

whether

Desc: Main

to

allow

In re Fin. Oversight & Mgmt.

Bd. for P.R., 330 F. Supp. 3d at 704 (emphasis in original)
(quoting 48 U.S.C. § 2144(c)).8

And because the Governor cannot

reprogram funds, at least without the Board's express permission,
it is irrelevant whether the proposals are "substantive budget
resolutions."

We therefore agree with the district court that the

reprogramming provisions in the fiscal plan and budget are at worst
superfluous and are, in any event, entirely valid as consistent
with PROMESA, so the Governor's arguments fail.
II.
For
court's

the

dismissal

foregoing
of

the

reasons,

we

reprogramming

affirm

the

suspension

district
provision

challenges, and we remand for further proceedings.

We do not address the possibility that the Board may amend a
budget to make provision for use of unspent funds that the Board
identifies.
8

- 11 -

Appendix B

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 1 of 39

Desc: Main

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
-------------------------------------------------------------x
In re:
THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO,
as representative of
THE COMMONWEALTH OF PUERTO
RICO,

PROMESA
Title III
Case No. 17-3283 (LTS)
(Jointly Administered)

Debtors.1
-------------------------------------------------------------x
HON. RICARDO ANTONIO ROSSELLÓ
NEVARES (in his official capacity), and THE
PUERTO RICO FISCAL AGENCY AND
FINANCIAL ADVISORY AUTHORITY,
v.

Adv. Proc. No. 18-080-LTS in
17 BK 3283-LTS

Plaintiffs,

THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO,
JOSÉ B. CARRIÓN III, ANDREW G. BIGGS,
CARLOS M. GARCÍA, ARTHUR J. GONZÁLEZ,
JOSÉ R. GONZÁLEZ, ANA J. MATOSANTOS,
DAVID A. SKEEL, JR., and NATALIE A.
JARESKO (in their official capacities),
Defendants.
-------------------------------------------------------------x

1

The Debtors in the underlying Title III Case, along with each Debtor’s respective Title III
case number and the last four (4) digits of each Debtor’s federal tax identification number,
as applicable, are the (i) Commonwealth of Puerto Rico (Bankruptcy Case No. 17 BK
3283-LTS) (Last Four Digits of Federal Tax ID: 3481); (ii) Puerto Rico Sales Tax
Financing Corporation (“COFINA”) (Bankruptcy Case No. 17 BK 3284-LTS) (Last Four
Digits of Federal Tax ID: 8474); (iii) Puerto Rico Highways and Transportation Authority
(“HTA”) (Bankruptcy Case No. 17 BK 3567-LTS) (Last Four Digits of Federal Tax ID:
3808); (iv) Employees Retirement System of the Government of the Commonwealth of
Puerto Rico (“ERS”) (Bankruptcy Case No. 17 BK 3566-LTS) (Last Four Digits of Federal
Tax ID: 9686); and (v) Puerto Rico Electric Power Authority (“PREPA”) (Bankruptcy
Case No. 17 BK 4780-LTS) (Last Four Digits of Federal Tax ID: 3747).

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

1

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 2 of 39

Desc: Main

CORRECTED OPINION AND ORDER GRANTING IN PART DEFENDANTS’
MOTION TO DISMISS THE COMPLAINT *
APPEARANCES:
MARINI PIETRANTONI MUÑIZ LLC

O’NEILL & BORGES LLC

By:

By:
Hermann D. Bauer
250 Muñoz Rivera Avenue, Suite 800
San Juan, P.R. 00918-1813

Luis C. Marini-Biaggi
Carolina Velaz-Rivero
MCS Plaza, Suite 500
255 Ponce de León Ave.
San Juan, Puerto Rico 00917
O’MELVENY & MYERS LLP
By:

John J. Rapisardi
William J. Sushon
7 Times Square
New York, New York 10036
and
Peter Friedman
1625 Eye Street, NW
Washington, D.C. 20006
and
Elizabeth L. McKeen
610 Newport Center Drive, 17th Floor
Newport Beach, California 92660
Attorneys for Plaintiffs Governor Rosselló
Nevares and the Puerto Rico Fiscal Agency
and Financial Advisory Authority

*

PROSKAUER ROSE LLP
By:
Martin J. Bienenstock
Stephen L. Ratner
Mark D. Harris
Timothy W. Mungovan
Kevin J. Perra
Eleven Times Square
New York, N.Y. 10036
and
Guy Brenner
1001 Pennsylvania Ave., NW
Suite 600 South
Washington, DC 20004
Attorneys for Defendants the Financial
Oversight and Management Board for Puerto
Rico, José B. Carrión III, Andrew G. Biggs,
Carlos M. García, Arthur J. González, José
R. González, Ana J. Matosantos, David A.
Skeel, Jr., and Natalie A. Jaresko (in their
official capacities)

This opinion and order corrects certain typographical errors in and supersedes the Opinion
and Order Granting in Part Defendants’ Motion to Dismiss the Complaint (Docket Entry
No. 33).

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

2

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 3 of 39

Desc: Main

LAURA TAYLOR SWAIN, United States District Judge
Before the Court is the Defendants’ Motion Pursuant to Fed. R. Civ. P. 12(b)(1)
and 12(b)(6) to Dismiss Plaintiffs’ Complaint Dated July 5, 2018 (Docket Entry No. 16 in
Adversary Proceeding No. 18-00080, the “Motion”), 2 filed by the Financial Oversight and
Management Board for Puerto Rico (the “Oversight Board”), José B. Carrión III, Andrew G.
Biggs, Carlos M. García, Arthur J. González, José R. González, Ana J. Matosantos, David A.
Skeel, Jr., and Natalie A. Jaresko (collectively, and together with the Oversight Board, the
“Defendants”). The Court heard argument on the Motion on July 25, 2018 (the “Hearing”), and
has considered carefully all of the arguments and submissions made in connection with the
Motion. 3 Except as explained below, the Court has subject matter jurisdiction of this action
pursuant to 48 U.S.C. § 2166. For the following reasons, the Motion is granted in part and
denied in part. 4

2

All docket entry references are to entries in Adversary Proceeding No. 18-00080, unless
otherwise specified.

3

The Court has received and reviewed the Tendered Legal Brief of Amicus Curiae Popular
Democratic Party Caucus of the Puerto Rico Senate in Support of the Commonwealth of
Puerto Rico (Docket Entry No. 31, Ex. A, the “Amicus Brief”). The motion for leave to
file the brief is granted, and the Court has considered the Amicus Brief in connection
with its determination of the Motion to dismiss the Complaint.

4

The Court also heard oral argument at the Hearing in connection with a motion to dismiss
the complaint in Rivera-Schatz et al. v. Financial Oversight and Management Board for
Puerto Rico et al., 18-AP-081-LTS (D.P.R.) (the “Legislative Assembly Lawsuit”), an
adversary proceeding filed in the Commonwealth’s Title III case that raises issues related
to those argued in connection with this Motion. The Court will address separately the
motion to dismiss the Legislative Assembly Lawsuit.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

3

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 4 of 39

Desc: Main

I.
BACKGROUND
The following recitation of facts is drawn from the Adversary Complaint for
Declaratory and Injunctive Relief (Docket Entry No. 1, the “Complaint”), filed on July 5, 2018,
by the Honorable Ricardo Antonio Rosselló Nevares (the “Governor”) in his official capacity as
the Governor of the Commonwealth of Puerto Rico (the “Commonwealth” or “Puerto Rico”) and
the Puerto Rico Fiscal Agency and Financial Advisory Authority (“AAFAF” and, together with
the Governor, “Plaintiffs”), except where otherwise noted.
A.

Certification of the Fiscal Plan and Budget

On June 30, 2016, the United States Congress (“Congress”) enacted the Puerto
Rico Oversight, Management, and Economic Stability Act (“PROMESA”) to “stabilize Puerto
Rico’s economy by establishing oversight of the Government’s budget and fiscal policies and by
providing a mechanism for the Commonwealth to restructure its debts.” (Compl. ¶ 21.) 5
PROMESA created the Oversight Board as “an entity within the territorial government” of
Puerto Rico and tasked the Oversight Board with developing “a method [for Puerto Rico] to
achieve fiscal responsibility and access to the capital markets.” 48 U.S.C.A. §§ 2121(a), (c)(1)
(West 2017). In aid of that purpose, PROMESA empowers the Oversight Board to, among other
things, certify the fiscal plans and budgets of the Commonwealth and its instrumentalities,
override Commonwealth executive and legislative actions that are inconsistent with certified
fiscal plans and budgets, and commence a bankruptcy-type proceeding in federal court on behalf
of the Commonwealth or its instrumentalities. Id. §§ 2141–2152; 2175(a).

5

PROMESA is codified at 48 U.S.C. § 2101 et seq. References to “PROMESA” section
numbers in the remainder of this opinion are to the uncodified version of the legislation.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

4

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 5 of 39

Desc: Main

On May 3, 2017, the Oversight Board commenced a debt adjustment proceeding
on behalf of the Commonwealth by filing a petition in this Court under Title III of PROMESA. 6
(See Docket Entry No. 1 in Case No. 17-03283). Shortly thereafter, the Oversight Board
commenced Title III proceedings on behalf of certain Puerto Rican government instrumentalities.
Between January 24, 2018, and April 5, 2018, the Governor submitted four
versions of a proposed Commonwealth fiscal plan for fiscal year 2019 to the Oversight Board for
its approval. (Compl. ¶¶ 46, 47, 48, 50 (detailing fiscal plans submitted by the Governor to the
Oversight Board on January 24, 2018, February 12, 2018, March 23, 2018, and April 5, 2018).)
The Oversight Board rejected each proposed fiscal plan. (Id. ¶¶ 46-51.) On April 19, 2018, in
connection with the Oversight Board’s rejection of the Governor’s fourth proposed
Commonwealth fiscal plan (the “Governor’s April 2018 Fiscal Plan”), the Oversight Board
certified its own fiscal plan for the Commonwealth (the “April 2018 Board Fiscal Plan”)
pursuant to Sections 202(d)(2) and 202(e)(2) of PROMESA. (Id. ¶ 51.) The April 2018 Board
Fiscal Plan was substantially similar to the Governor’s April 2018 Fiscal Plan, but included
certain policy initiatives that had previously been rejected by the Governor and that accounted
for an additional 1.7 percent of the incremental savings contemplated by the April 2018 Board
Fiscal Plan. (Id.)
On April 26, 2018, the Oversight Board sent the Governor a letter dated April 24,
2018, setting forth a proposed schedule for developing and certifying the Commonwealth’s fiscal
year 2019 budget and a revenue forecast for fiscal year 2019. (Id. ¶ 56.) On May 2, 2018, the
Oversight Board sent a letter to AAFAF (i) describing detailed expense reductions and rightsizing measures aimed at achieving savings of $345 million in fiscal year 2019, (ii) including a

6

See 48 U.S.C.A. §§ 2164; 2172-2174 (West 2017).

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

5

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 6 of 39

Desc: Main

draft budget resolution for adoption by the Legislative Assembly of the Commonwealth of
Puerto Rico (the “Legislature”), and (iii) proposing detailed expense measures that set forth lineby-line amounts for expense items, including right-sizing measures, healthcare measures,
subsidy reductions, and specific personnel and non-personnel expenditure amounts for each
Commonwealth agency or instrumentality covered by the Commonwealth budget. (Id. ¶ 57.)
On May 4, 2018, the Governor submitted a proposed Commonwealth budget for fiscal year 2019
(the “Governor’s Proposed Budget”) to the Oversight Board. (Id. ¶ 58.)
On May 6, 2018, the Governor submitted a written statement, pursuant to Section
205(b)(3) of PROMESA, to the Oversight Board, the President of the United States, and leaders
of Congress. (Id. ¶ 59.) In this written statement, the Governor explained that certain “policy
initiatives” outlined by the Oversight Board in connection with the April 2018 Board Fiscal Plan
were, in fact, “recommendations” under Section 205 of PROMESA that could not be imposed by
the Oversight Board on the elected government of Puerto Rico. (Id.) Specifically, the Governor
identified five measures included in the April 2018 Board Fiscal Plan that he had rejected: (i)
private-sector human-capital and labor reforms, (ii) pension reforms, (iii) government agency
consolidations, (iv) compensation related initiatives, and (v) reductions in appropriations to the
University of Puerto Rico (“UPR”). (Id.) The Governor asserted that the Oversight Board lacks
power to impose these measures on the Government. 7 (Id.)
On May 10, 2018, the Oversight Board issued a notice of violation under
PROMESA Section 202(c)(1)(B)(i) to the Governor, stating that the Governor’s Proposed
Budget was not compliant with the April 2018 Board Fiscal Plan and requesting that the

7

As used in this Opinion and Order, the term “the Government” is a collective reference to
the Governor and members of the Legislative Assembly.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

6

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 7 of 39

Desc: Main

Governor submit a revised budget. (Id. ¶ 60.) The notice identified several inconsistencies
between the April 2018 Board Fiscal Plan and the Governor’s Proposed Budget, including (i) the
Governor’s failure to include UPR and workforce development reinvestments generated from
comprehensive labor reform, (ii) the Governor’s inclusion of Christmas bonuses for government
employees, and (iii) a number of informational deficiencies in the Governor’s Proposed Budget.
(Id.)
After a period of negotiations, on May 20, 2018, the Governor and the Oversight
Board agreed that the Oversight Board would amend and recertify the April 2018 Board Fiscal
Plan to include a $101 million reduction of the projected annual surplus for fiscal year 2019 and
to exclude the Oversight Board’s prior measures reducing the minimum number of vacation and
sick days for private sector employees and eliminating Christmas bonuses. (Id. ¶ 63.) In
exchange, the Governor agreed to present a bill to repeal Puerto Rico’s Wrongful Termination
Act, Law No. 80 of May 30, 1976 (as amended, “Law 80”), for approval by the Legislature by
June 27, 2018. (Id.) On May 28, 2018, the Governor submitted to the Legislature a standalone
bill to repeal Law 80. (Id. ¶ 64.) On May 30, 2018, the Oversight Board certified an amended
version of the April 2018 Board Fiscal Plan, which contained the agreed-upon revisions. (Id. ¶
65.) The Oversight Board delivered a compliance certification letter and a copy of the May 30,
2018, fiscal plan to the Governor, the President of the Senate of Puerto Rico, and the Speaker of
the House of Representatives of Puerto Rico as required by PROMESA Section 201(e)(2). (Id. ¶
66.)
On June 4, 2018, the Oversight Board submitted a letter to the Honorable Jorge
Navarro Suárez, the President of the Government Commission of the Puerto Rico House of
Representatives, stating that, if the Legislature failed to repeal Law 80, the Oversight Board

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

7

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 8 of 39

Desc: Main

would revert to its April 2018 Board Fiscal Plan and would submit a budget consistent with that
earlier fiscal plan to the Governor and the Legislature. (Id. ¶ 67.) The Oversight Board also
stated its intent, if Law 80 were not repealed, to impose a budget eliminating certain
appropriations and maintaining the elimination of the Christmas bonus and cuts to the
Legislature and Judiciary budgets. (Id.)
After the failure of the Legislature to repeal Law 80, the Oversight Board certified
a revised Commonwealth fiscal plan on June 29, 2018 (the “Fiscal Plan,” Compl. Ex. 5) that is
substantially similar to the April 2018 Board Fiscal Plan. (Id. ¶ 68.) The Oversight Board
delivered a compliance certification letter as required by PROMESA Section 201(e)(2) on the
same day. (Id.)
On June 29, 2018, the Puerto Rico House of Representatives and the Senate of
Puerto Rico voted to approve a fiscal year 2019 Commonwealth budget, which the Governor
later signed and which did not provide for Law 80’s repeal. (Id. ¶ 70.) On June 30, 2018, the
Oversight Board certified a separate Commonwealth budget for fiscal year 2019 (the “Budget”).
(Id. ¶ 71.) The Budget incorporates four legislative resolutions, two of which are at issue here:
(i) a joint resolution authorizing expenditures from the General Fund (the “General Fund
Resolution,” Compl. Ex. 6), and (ii) a joint resolution authorizing expenditures for certain
special, permanent, or temporary programs (the “Special Resolution,” Compl. Ex. 7 and, together
with the General Fund Resolution, the “Challenged Budget Resolutions”). (Id. ¶ 72.)
B. The Challenged Provisions
The Fiscal Plan and the Challenged Budget Resolutions collectively incorporate
certain measures (the “Challenged Provisions”) which are challenged by the Governor. First,
both the Fiscal Plan and the Challenged Budget Resolutions provide for the suspension of any

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

8

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 9 of 39

Desc: Main

power of the Puerto Rico Treasury, budget, and financial authorities to authorize reprogramming
or extensions of budget appropriations from prior fiscal years. (Id. ¶¶ 69, 73.) Specifically,
Section 11.2.1 of the Fiscal Plan provides that:
Any power of [the Office of Management and Budget (“OMB”)],
[AAFAF] or the Department of the Treasury, including the
authorities granted under [Act 230], to authorize the reprogramming
or extension of appropriations of prior fiscal years is hereby
suspended. Notwithstanding this section, the appropriations
approved in the budget certified by the Oversight Board may be
modified or reprogrammed with the approval of the Oversight
Board.
(Fiscal Plan § 11.2.1.) Section 7 of each Challenged Budget Resolution includes identical
language, and Section 10 of the General Fund Resolution further provides that OMB may
withhold from any of the allocations to the Commonwealth’s executive agencies “the amounts
necessary to pay for the pay-go contribution, unemployment insurance, or taxes withheld from
their employees, when OMB determines that such a withholding is necessary to ensure
compliance with these obligations by the agencies concerned. Any such amounts withheld by
OMB shall solely be reprogrammed to pay the corresponding outstanding obligations . . . as
allowed in this Section.” (General Fund Resolution §§ 7, 10; Special Resolution § 7.)
The second Challenged Provision is a Fiscal Plan provision that is characterized
by Plaintiffs as requiring government agency consolidations (the “Consolidation Measure”).
Section 12.1 of the Fiscal Plan, which is captioned “Changes to agency operational
expenditures,” includes the following language: “the right-sized Government of the future should
wherever possible reflect mainland U.S. benchmarks in terms of both number of agencies and
size of agencies themselves to deliver services in as efficient a manner possible . . . the
Government should consolidate the 114 agencies into 22 groupings and a number of independent
agencies.” (Fiscal Plan § 12.1 (emphasis removed).)

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

9

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 10 of 39

Desc: Main

The third Challenged Provision is a section of the Fiscal Plan that contemplates
automatic budget reductions and workforce reductions for fiscal years following any such year in
which the third-quarter actual figures for “efficiency savings” for particular agency groupings
fall short of budgeted projections. Section 12.3 of the Fiscal Plan provides that:
If, after the third fiscal quarter of any fiscal year there remains
unrealized agency efficiency savings for any grouping relative to the
projected agency efficiency savings in the New Fiscal Plan for the
applicable fiscal year, the Oversight Board will automatically
reduce the budget for the corresponding grouping for the following
fiscal year in the amount equal to the unrealized agency efficiency
savings. In particular, if the Oversight Board determines that there
is material underperformance in agency efficiency savings relative
to the projections set forth in the New Fiscal Plan, intentional
workforce reductions will be necessary to meet the agency
efficiency savings targets set forth herein.
(Fiscal Plan § 12.3.)
The fourth category of Challenged Provisions includes the following (collectively,
the “Employee Benefits Reduction Measure”): (i) the Fiscal Plan’s characterization of a hiring
freeze, limitations on paid holidays, restrictions on sick and vacation days, and elimination of the
Christmas bonus as policies that the Government must continue, and (ii) the Challenged Budget
Resolutions’ alleged elimination of the Christmas bonus. (Plaintiffs’ Opposition to Defendants’
Motion to Dismiss (the “Opposition”), Docket Entry No. 22, § II.C.1.) The Christmas bonuses
are mandatory under Puerto Rico’s Christmas Bonus Act, Law No. 148 of June 30, 1969, as
amended. (Compl. ¶ 69.)
The fifth Challenged Provision requires specific types of corrective action in the
event of budgetary noncompliance, and declares that spending in excess of budgetary
appropriations is a violation of an existing Puerto Rico criminal statute. At issue in this regard

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

10

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 11 of 39

Desc: Main

are four provisions of the Challenged Budget Resolutions. Section 15 of General Fund
Resolution and Section 14 of the Special Resolution provide that:
If during the fiscal year the government fails to comply with the
liquidity and budgetary savings measures required by the New
Fiscal Plan for Puerto Rico certified by the Oversight Board, the
Government shall take all necessary corrective action, including the
measures provided in PROMESA sections 203 and 204.
(General Fund Resolution § 15; see also Special Resolution § 14.) Additionally, Section 16 of
the General Fund Resolution and Section 15 of the Special Resolution prohibit territorial entities
from “spending or encumbering during fiscal year 2019 any amount that exceeds the
appropriations authorized for such year,” and provide that any “violation of this prohibition shall
constitute a violation of [the Resolutions] and Act 230.” (General Fund Resolution § 16; see also
Special Resolution § 15.)
Plaintiffs assert that, in his May 6, 2018 communication to the Oversight Board
and federal government officials, the Governor had objected to each of the Challenged
Provisions as a “non-binding recommendation” under Section 205(a) of PROMESA, and that the
communication constituted a formal rejection of each of the Challenged Provisions pursuant to
the procedures set forth in Section 205(b) of PROMESA. 8 (See Opp’n at 27.) Plaintiffs argue
that compliance with such rejected recommendations cannot be mandated by a fiscal plan or a
budget imposed unilaterally by the Oversight Board.

II.
DISCUSSION
Defendants move pursuant to Federal Rules of Civil Procedure 12(b)(1) and

8

Sections 205(a) and (b) of PROMESA are discussed in further detail infra.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

11

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 12 of 39

Desc: Main

12(b)(6) 9 to dismiss Plaintiffs’ Complaint for lack of subject matter jurisdiction and for failure to
state a claim upon which relief may be granted. A court presented with motions to dismiss under
both Rules 12(b)(1) and 12(b)(6) should ordinarily decide jurisdictional questions before
addressing the merits. Deniz v. Municipality of Guaynabo, 285 F.3d 142, 149 (1st Cir. 2002).
The party invoking the jurisdiction of a federal court carries the burden of proving the existence
of proper grounds for the exercise of jurisdiction. Johansen v. United States, 506 F.3d 65, 68
(1st Cir. 2007). The Court also has an independent duty to assess whether it has subject matter
jurisdiction of an action. See Fed. R. Civ. P. 12(h)(3); FW/PBS, Inc. v. City of Dallas, 493 U.S.
215, 231 (1990).
Plaintiffs’ Complaint pleads the following three Counts. In Count One, Plaintiffs
seek declarations that certain Challenged Provisions incorporated into the Fiscal Plan are merely
recommendations that cannot be mandated and enforced by the Oversight Board, and general
declarations regarding the status of certain types of Fiscal Plan provisions as non-binding
recommendations. In Count Two, Plaintiffs seek similar relief with respect to certain Challenged
Provisions incorporated into the Challenged Budget Resolutions and certain types of budgetary
provisions. In Count Three, Plaintiffs seek injunctive relief prohibiting the implementation and
enforcement of the Fiscal Plan and Challenged Budget Resolution provisions Plaintiffs
characterize as policy recommendations that the Governor has rejected, and such provisions that
Plaintiffs contend exceed the Oversight Board’s powers under PROMESA’s budget-related
provisions.

9

Rules 12(b)(1) and 12(b)(6) are applicable to this adversary proceeding pursuant to
Federal Rule of Bankruptcy Procedure 7012.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

12

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 13 of 39

Desc: Main

A. Rule 12(b)(1): Subject Matter Jurisdiction
The crux of the issues raised in Plaintiffs’ Complaint is whether PROMESA
grants the Oversight Board the power to include mandates in the Fiscal Plan and Budget that are
premised on public policy decisions with which the Governor of Puerto Rico does not agree.
Related to this issue is the relationship between the Oversight Board’s fiscal plan and budgetary
powers and pre-existing Puerto Rico law – whether the Oversight Board’s actions can modify,
suspend, or override certain features of Puerto Rico law that were in place prior to the enactment
of PROMESA. Defendants assert that the declaratory and injunctive relief Plaintiffs seek would
result in decertification of the certified Fiscal Plan, and that the Court is prohibited from
entertaining their claims by Section 106(e) of PROMESA. (Docket Entry No. 17 (“Defs.’
Mem.”), at 27.) Defendants also contend that Plaintiffs’ requested declarations are improper
requests for advisory opinions. (Id.)
1. Limitations on Jurisdiction Under PROMESA Section 106(e)
Section 106(e) of PROMESA provides that:
There shall be no jurisdiction in any United States district court to
review challenges to the Oversight Board’s certification
determinations under this [Act].
48 U.S.C.A. § 2126(e) (West 2017). Defendants argue that the Court lacks subject matter
jurisdiction of Plaintiffs’ claims because they implicitly seek invalidation of the certified Fiscal
Plan and Budget. 10 (Defs.’ Mem. at 28 (citing Ambac Assurance Corp. v. Commonwealth of

10

Defendants also argue that Plaintiffs are judicially estopped from asserting that the Court
has jurisdiction of their claims in this adversary proceeding because Plaintiffs argued in a
prior adversary proceeding that fiscal plans and budgets are beyond challenge under
Section 106(e) of PROMESA. (Defs.’ Mem. at 28.) In response, Plaintiffs argue that
they are not judicially estopped from asserting that jurisdiction exists in this case because
the issues in this case are not identical to those in prior cases. (Opp’n at 29.) As
explained herein, Plaintiffs’ positions are not truly inconsistent because Plaintiffs

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

13

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 14 of 39

Desc: Main

P.R. (In re Fin. Oversight & Mgmt. Bd. for P.R.), 297 F. Supp. 3d 269, 284 (D.P.R. 2018)
(holding that the Court lacks subject matter jurisdiction of claims that “implicitly or explicitly[]
seek invalidation of the certification of the Fiscal Plan”)).) Plaintiffs assert, however, that they
“do not challenge the [Oversight] Board’s certification decisions or contest that the fiscal plan
meets PROMESA’s certification criteria.” (Opp’n at 29.) Instead, Plaintiffs argue, the “sole
issue presented by this action is the effect” and enforceability of certain provisions of the
certified Fiscal Plan and Challenged Budget Resolutions. (Id. at 28.) Plaintiffs’ characterization
of their claims is accurate and, for the following reasons, Section 106(e) does not preclude the
Court from exercising jurisdiction of this action.
Although PROMESA grants the Oversight Board exclusive authority to certify
fiscal plans and “also insulates the Oversight Board’s certification determinations . . . from
challenge by denying all federal district courts jurisdiction to review such challenges,” Section
106(e) does not deprive the district court of jurisdiction to entertain all conceivable litigation
touching on certified documents. See Ambac, 297 F. Supp. 3d at 283-84 (holding that
PROMESA Section 106(e) did not preclude consideration of federal constitutional challenges to
fiscal plan). Here, Plaintiffs seek determinations as to whether PROMESA grants the Oversight
Board authority to promulgate certain provisions of the certified Fiscal Plan and Budget, and as
to whether such challenged provisions of those documents are merely, as a matter of law,
recommendations that the Governor and Legislature are free to ignore. There is a material

advance different legal arguments in this adversary proceeding. Accordingly, Plaintiffs
are not judicially estopped from asserting that jurisdiction exists here. See United States
v. Levasseur, 846 F.2d 786, 794 (1st Cir. 1988) (finding judicial estoppel did not apply
because “the doctrine is applied only when the positions are truly inconsistent . . . for the
invocation of the doctrine, the two positions must be diametrically opposed”) (internal
citations omitted). In any event, the Court is obligated to make its own determination as
to subject matter jurisdiction. See Fed. R. Civ. P. 12(h)(3).
180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

14

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 15 of 39

Desc: Main

difference between an action seeking review of the Oversight Board’s determination that a plan
or budget meets the requirements for certification or is compliant with particular aspects of
PROMESA Section 201(b) (specifying required features of a fiscal plan), and litigation seeking
clarification as to the effect of particular provisions of a certified fiscal plan or budget on
preexisting Puerto Rico law, or on the powers of the executive and legislative branches of the
government of Puerto Rico. The questions before the Court implicate the impact, rather than the
propriety, of the certification of the Fiscal Plan and Budget, and their determination is not
precluded by Section 106(e). 11
2. Case or Controversy Requirement – Do Plaintiffs Seek Advisory Opinions?
Article III, Section 2 of the Constitution of the United States limits the exercise of
federal judicial power to actual cases and controversies. U.S. Const. art. III, § 2; Aetna Life Ins.
Co. of Hartford, Conn. v. Haworth, 300 U.S. 227, 239-41 (1937). The authority conferred on
federal courts by the Declaratory Judgment Act, 28 U.S.C. § 2201, is likewise limited to
controversies that are within the constitutionally-constrained scope of federal jurisdiction.
Aetna, 300 U.S. at 240. A justiciable controversy must be “a real and substantial controversy
admitting of specific relief through a decree of a conclusive character, as distinguished from an

11

This reasoning is not inconsistent with this Court’s prior decision in Ambac and in related
prior cases. In Ambac, this Court held that Section 106(e) of PROMESA bars any claim
that challenges the Oversight Board’s certification decision itself and any implicit
challenges of a certification decision as violating the requirements set forth in Section
201(b) of PROMESA. See Ambac, 297 F. Supp. 3d at 284. Here, Plaintiffs do not
challenge the Oversight Board’s certification decisions with respect to either the Fiscal
Plan or Budget. Moreover, Plaintiffs do not dispute that the Fiscal Plan complies with
the requirements of Section 201(b) of PROMESA. (Opp’n at 29.) Instead, Plaintiffs
seek a determination regarding the effect and enforceability of a discrete set of provisions
contained within the certified Fiscal Plan and Budget. Even if the Court were to
determine that certain of the Challenged Provisions constitute non-binding
recommendations, decertification of the Fiscal Plan and Budget would not be required.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

15

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 16 of 39

Desc: Main

opinion advising what the law would be upon a hypothetical state of facts.” Aetna, 300 U.S. at
241. Federal courts are not empowered to issue advisory opinions where there is no such actual
controversy. See id.; Golden v. Zwickler, 394 U.S. 103, 108 (1969); Shell Oil Co. v. Noel, 608
F.2d 208, 213 (1st Cir. 1979).
The constitutional requirement that controversies be justiciable and “admit[] of
specific relief through a decree of a conclusive character” requires more than strong or even
significant disagreement, however high the stakes, to obtain declaratory relief. The issue must
be raised, and the relief sought, in a fashion that would address a specific live controversy of
sufficient immediacy and reality to warrant the issuance of a declaratory judgment. See Golden,
394 U.S. at 108, 110. Rulings on isolated or abstract principles that will merely be useful in
formulating or litigating future choices that might or might not be made are outside the
authorized scope of declaratory relief.
i.

The Consolidation Measure

As detailed in Section I, supra, Plaintiffs’ claims focus on five Challenged
Provisions. The Consolidation Measure is one of those Challenged Provisions. Plaintiffs argue
that the proposed agency consolidation constitutes an improper attempt by the Oversight Board
to “dictate how the Government will organize itself to conduct day-to-day operations.” (Compl.
¶ 69.) However, as Defendants point out in their response, the challenged Fiscal Plan language
is not posed in mandatory terms -- “the statement in the Fiscal Plan that the Government should
consolidate the agencies does not compel Plaintiffs to do anything . . . There is no significant
dispute here and certainly no imposition.” (Defs.’ Mem. at 22; see also Reply at 14.) At oral
argument, counsel for Plaintiffs conceded this point, agreeing that the budget could provide

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

16

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 17 of 39

Desc: Main

funding for less than the full current complement of agencies, forcing the Government to make
choices in order to stay within the budget allocation, without violating the law.
Accordingly, there is no case or controversy as to whether the Fiscal Plan
improperly mandates agency consolidations and Paragraph 80 of Count One of the Complaint,
which seeks a declaration that “the provisions seeking to impose Government agency
consolidations under Board Fiscal Plan section 12 . . . are non-binding recommendations” is
dismissed pursuant to Federal Rule of Civil Procedure 12(b)(1), for lack of a justiciable case or
controversy.
ii.

The Employee Benefits Reduction Measure

Paragraph 82 of Count II demands a declaration that “the provision requiring the
elimination of certain mandatory benefits under Board Fiscal Plan section 12.4 – which ‘places
controls on expenditures for personnel’ and ‘reduc[es] benefit costs’ under PROMESA section
205(a)(1) – is a non-binding recommendation that the Oversight Board cannot unilaterally alter
through the Board Fiscal Plan and force on the Government.” Section 12.4 of the Fiscal Plan,
titled “Compensation-related initiatives,” sets forth three initiatives related to employee benefits
that the motion briefing and argument indicate are challenged by Plaintiffs: (i) the institution of a
payroll freeze, (ii) the standardization of healthcare provided to government employees, and (iii)
the reduction of certain non-salary compensation paid to employees and other personnel policies.
(See Fiscal Plan at 69-70.) Specifically, Section 12.4 mandates that the “measure to freeze all
payroll expenses” included in the March 2017 Commonwealth Fiscal Plan “must be continued
through the duration of the New Fiscal Plan.” Id. (emphasis in original). The Fiscal Plan also
requires that the Government continue to enforce certain policies related to non-salary
compensation paid to employees, including “asserting a hiring freeze,” “prohibiting any future

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

17

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 18 of 39

Desc: Main

liquidation of sick and vacation days,” and “eliminating the Christmas bonus for all public
employees.” (Id.) The healthcare provision calls for adjustment of the amount spent by the
Commonwealth for healthcare for each public employee to $100 per month. (Id.)
Plaintiffs argue that Section 12.4 of the Fiscal Plan “places controls on
expenditures” and “reduc[es] benefit costs” within the meaning of PROMESA Section 205(a)(1),
and that this Section should therefore be considered a non-binding policy recommendation
because it is among the types of measures enumerated in PROMESA’s non-exhaustive
description of the types of measures regarding which the Oversight Board can submit
recommendations to the Governor under Section 205. Defendants proffer, and Plaintiffs do not
contest, that the measures other than the hiring freeze and the elimination of the Christmas bonus
are already provided for under Commonwealth law. Defendants argue that the hiring freeze
mandated by Section 12.4 of the Fiscal Plan is a means to “enable the achievement of fiscal
targets” pursuant to Section 201(b)(1)(G) of PROMESA, and that the elimination of the
Christmas bonus for all public employees serves to advance the aims of the Fiscal Plan pursuant
to PROMESA Sections 201(b)(1)(D), (F), and (G). (Defs.’ Mem. at 20; Reply at 13.) With
respect to the elimination of Christmas bonuses, Defendants also assert, and Plaintiffs do not
deny, that the budget does not prohibit payment of the bonus. Rather, the payroll amounts
provided are ones that are insufficient to cover current compensation of the full current
complement of employees plus Christmas bonuses and, as Plaintiffs’ counsel put it at oral
argument, “It’s the Governor who has to make some difficult choices, because he’s the one who
has to answer to the people. The Oversight Board is just, here’s how much money you get. If
people have to be let go, if Christmas bonuses don’t get paid because of that, that’s on us. That’s

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

18

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 19 of 39

Desc: Main

on the chief executive officer of Puerto Rico to make a determination how to implement that
budget guideline.” (Tr. at 127:2-8.)
Because the parties agree that the current budget does not eliminate Christmas
bonuses or impose a hiring freeze, there is no ripe case or controversy as to the Board’s ability to
make such measures mandatory. Nor does there appear to be any justiciable controversy as to
the other enumerated salary and benefit measures, which appear to be consistent with current
Commonwealth law. Accordingly, the Court lacks subject matter jurisdiction of the issues raised
in Paragraph 82 of Count I and the similar claim asserted in Paragraph 87 of Count II of the
Complaint and Defendants’ Motion will be granted pursuant to Federal Rule of Civil Procedure
12(b)(1) insofar as it is directed to those paragraphs.
iii.

The Remaining Challenged Provisions

Plaintiffs’ claims as to the other three Challenged Provisions (the “Remaining
Challenged Provisions”) present justiciable issues that are capable of conclusively and
immediately resolving the disputes as to the extent to which the Government must act in
accordance with the certified Fiscal Plan and Budget. The question of whether the Oversight
Board has the power to impose those Remaining Challenged Provisions as mandatory presents a
ripe controversy that must be resolved to clarify for operational purposes the scope and
limitations of the Oversight Board’s power and its relationship to the role and powers of the
elected Government of Puerto Rico, so that the parties can proceed with proper implementation
of the budget for the current fiscal year and work effectively with each other to accomplish the
restorative purposes of PROMESA. This is an issue of practical immediacy for the parties and
for the people of Puerto Rico. Certain of Plaintiffs’ requests for legal determinations are,
however, of a speculative and abstract nature and are thus, as explained below, of insufficient

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

19

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 20 of 39

Desc: Main

immediacy to rise to the constitutional level of justiciability.
The Court now turns to Plaintiffs’ specific claims and requests for relief as set
forth in the Complaint, examining whether they are ripe for determination or seek advisory
opinions, and, for those that are ripe, whether they state claims upon which relief may be
granted.
B. The Remaining Challenged Provisions and Requests for Relief
To survive a motion to dismiss for failure to state a claim upon which relief can
be granted under Rule 12(b)(6), a complaint must plead “enough facts to state a claim to relief
that is plausible on its face.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007). The
court accepts as true the non-conclusory factual allegations in the complaint and makes all
reasonable inferences in the plaintiff’s favor. Miss. Pub. Emps.’ Ret. Sys. v. Boston Scientific
Corp., 523 F.3d 75, 85 (1st Cir. 2008). The court may consider “documents the authenticity of
which are not disputed by the parties . . . documents central to plaintiffs’ claim, [and] documents
sufficiently referred to in the complaint.” Id. at 86 (citations omitted). The complaint must
allege enough factual content to nudge a claim “across the line from conceivable to plausible.”
Ashcroft v. Iqbal, 556 U.S. 662, 680 (2009) (citing Twombly, 550 U.S. at 570).
As detailed in Section I, supra, Plaintiffs’ claims focus on certain Challenged
Provisions and foundational questions of whether the Oversight Board can, through fiscal plans
and budgets, mandate actions implementing policies that have specifically been rejected by the
Governor, and whether the Oversight Board’s budget can modify or override pre-PROMESA
Commonwealth law. Prior to examining the Remaining Challenged Provisions, an overview of
the relevant statutory framework is in order.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

20

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 21 of 39

Desc: Main

1. Statutory Framework
At the core of this dispute are questions of statutory interpretation regarding the
interplay of Sections 205 and 201(b)(1)(K) of PROMESA, the effect of certification of an
Oversight Board-developed budget under Section 202 of PROMESA, the Oversight Board’s
powers to sanction non-compliance with such a certified budget, and the scope of PROMESA’s
preemption of pre-existing Commonwealth law.
Section 205(a) of PROMESA authorizes the Oversight Board to “submit
recommendations” to the Governor or the Legislature of Puerto Rico at any time “on actions the
territorial government may take to ensure compliance with the Fiscal Plan, or to otherwise
promote the financial stability, economic growth, management responsibility, and service
delivery efficiency of” the Government. 48 U.S.C.A. § 2145(a) (West 2017). Section 205(a)
provides a non-exhaustive list of matters that implicate significant policy choices about the
direction and operation of the government of Puerto Rico. Specifically, such matters include
managing territorial financial affairs, placing controls on personnel expenditures and reducing
benefit costs, reforming procurement practices, controlling the structural relationships among
entities within the territorial government, establishing alternative means of meeting pension
obligations, and modifying the types of services rendered directly by the territorial government
or through alternative service delivery mechanisms. See id. Section 205(b) requires the relevant
government entity to respond to the Oversight Board within 90 days with a statement as to
whether the Government will adopt the recommendations. Id. § 2145(b). If the
recommendations are to be adopted, the statement must include a written plan and timetable for
implementation of the recommendations. Id. If the Government declines to adopt the
recommendation, the Governor or the Legislature must include in the statement “explanations for
the rejection of the recommendations,” and that statement must be submitted to the President and
180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

21

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 22 of 39

Desc: Main

Congress of the United States as well as to the Oversight Board. Id. Section 205 does not
address further the fate of rejected recommendations.
Section 201 of PROMESA governs the development, approval, and certification
of territorial and instrumentality fiscal plans covering periods of five or more fiscal years. In
relevant part, it first contemplates a process in which the Governor formulates and proposes a
plan to the Oversight Board, the Oversight Board comments and recommends revisions, and the
Governor proposes revisions (multiple times, if necessary). If the Oversight Board ultimately
determines, in its sole discretion, that the Governor’s proposed plan meets the fiscal plan
specifications identified in Section 201(b) of the statute, the Oversight Board certifies the plan
and delivers a compliance certification to the Governor and the Legislature. See 48 U.S.C.A. §
2141(e)(1) (West 2017). In the event the Oversight Board determines “in its sole discretion” that
the Governor’s proposed plan is not satisfactory, the Oversight Board must develop and submit
to the Governor and Legislature its own fiscal plan that satisfies the statutory specifications. In
such event, the Oversight Board’s plan is deemed approved by the Governor, and the Oversight
Board issues a compliance certification for its plan to the Governor and the Legislature. Id. §§
2141(c)(3), (d)(2). 12 Section 201(b) identifies fourteen specific objectives and requirements that
a fiscal plan must meet. As relevant here, Section 201(b)(1)(K) expressly provides that a fiscal
plan shall “adopt appropriate recommendations submitted by the Oversight Board under [Section
205(a)].” Id. § 2141(b)(1)(K) (West 2017). Section 201(c)(3) provides the Oversight Board
with “sole discretion” to determine whether a proposed fiscal plan satisfies the requirements of
Section 201(b). Id. § 2141(c).

12

A plan developed jointly by the Governor and the Oversight Board for a fiscal year may
also be certified. See 48 U.S.C.A. § 2141(f) (West 2018).

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

22

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 23 of 39

Desc: Main

The parties generally agree that Section 205 allows the Oversight Board to make
policy “recommendations” to the Government “at any time” and that such recommendations may
be proposed as standalone policy considerations or as part of a certified fiscal plan. (Compl. ¶¶
5, 29; Defs.’ Mem. at 11-12.) Plaintiffs argue, however, that such provisions can never be more
than “‘recommendations’ under PROMESA section 205, which the Government is free to
reject,” even when they are included in a fiscal plan. (Compl. ¶ 5; id. ¶¶ 38-43.) Defendants
argue that Section 201(b)(1)(K) empowers the Oversight Board to “adopt” in a certified fiscal
plan, and thus make binding, any recommendation that the Oversight Board deems appropriate.
(Defs.’ Mem. at 11-12.) 13 Defendants rely principally on PROMESA Section 201(b)(1)(K) and
point also to Section 201(e)(2), which expressly provides that a fiscal plan certified by the
Oversight Board is “deemed approved by the Governor.” (Id. at 12.)
Section 202 of PROMESA governs the development of budgets, which must
cover at least one fiscal year. Following certification of a fiscal plan, Section 202(c)(1) places
the initial responsibility to develop proposed budgets that are consistent with the applicable fiscal
plan in the hands of the Governor and the Legislature. See 48 U.S.C. §§ 2142(c)(1), (d)(1) (West

13

Defendants acknowledge that the Oversight Board’s power to make recommended
measures binding through fiscal plan adoption is not unlimited. Recognizing that
certification results in deemed approval by the Governor but not the Legislature,
Defendants do not claim the ability to use a fiscal plan to impose measures that would
have to be implemented through new legislation. (Defs.’ Mem. at 11-12.)
Alternatively, Defendants argue that the Challenged Provisions are not
“recommendations” within the meaning of Section 205 of PROMESA, such that the
process of soliciting the views of the Governor or the Legislature was unnecessary and
that the disputed measures could have been mandated unilaterally under the authority of
more general provisions of Section 201(b). (See generally, Defs.’ Mem. § II.C.) Because
all of the Challenged Provisions are measures comprehended by the categories
enumerated under Section 205 and were aired with the Governor, who provided written
objections, prior to their incorporation into the Fiscal Plan, the Court need not reach the
Oversight Board’s alternative proposition to resolve this motion practice.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

23

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 24 of 39

Desc: Main

2017). PROMESA provides the Oversight Board with authority to review any such proposed
budget to determine whether it is compliant with the applicable fiscal plan and, if so, to certify it.
See id. § 2142(e)(1). As with the process for development of a fiscal plan, the Oversight Board
can notify the Governor and Legislature of its views as to noncompliance and request corrective
measures, and the Governor and Legislature are afforded multiple opportunities to submit
revised proposed budgets. Id. §§ 2141(c), (d). Absent submission of a compliant proposed
budget, the Oversight Board is required to develop and submit a compliant budget of its own no
later than the day before the beginning of the fiscal year to which the budget is being developed.
See id. §§ 2142(c)(2), (d)(2). PROMESA expressly provides that a budget developed and
certified by the Oversight Board as compliant with the fiscal plan is deemed approved by the
Governor and the Legislature and goes into “full force and effect” beginning on the first day of
the applicable fiscal year. See id. § 2142(e)(3). Section 4 of PROMESA provides that the Act’s
provisions “shall prevail over any general or specific provisions of territory law . . . or regulation
that is inconsistent with [the Act].” Id. § 2103. Section 108(a)(2) of PROMESA prohibits the
Governor and Legislature from exercising any supervision or control over the Oversight Board
or its activities, and from enacting, implementing or enforcing any “statute, resolution, policy, or
rule that would impair or defeat the purposes of [PROMESA], as determined by the Oversight
Board.” Id. § 2128(a).
Courts must construe statutes as a whole, in light of all of their provisions, and
giving effect to each part. See, e.g., United Savs. Ass’n of Tex. v. Timbers of Inwood Forest
Assocs., Ltd., 484 U.S. 365, 371 (1988) (noting that “[s]tatutory construction . . . is a holistic
endeavor”); Kelly v. Robinson, 479 U.S. 36, 43 (1986) (in interpreting a statute, a court “must

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

24

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 25 of 39

Desc: Main

not be guided by a single sentence or member of a sentence, but look to the provisions of the
whole law, and to its object and policy” (internal quotation marks omitted)).
The power bestowed on the Oversight Board by Section 201(b)(1)(K) of
PROMESA allows the Oversight Board to make binding policy choices for the Commonwealth,
notwithstanding the Governor’s rejection of Section 205 recommendations. This power is
consistent with PROMESA’s framework, particularly in light of (i) the mandate that the
Oversight Board “provide a method for [Puerto Rico] to achieve fiscal responsibility and access
to the capital markets” (48 U.S.C.A. §2121(a) (West 2017)), (ii) the Oversight Board’s “sole
discretion” to certify fiscal plans and put budgets of its own devising into effect (id. §§ 2141,
2142), (iii) PROMESA’s preemption of laws inconsistent with its provisions (id. § 2103), and
(iv) PROMESA’s prohibition of gubernatorial oversight and of implementation of any policy
that would “impair or defeat the purposes of [PROMESA] as determined by the Oversight
Board” (id. § 2128(a)(2)). “[A]ppropriate,” as used in Section 201(b)(1)(K), means appropriate
in the judgment of the Oversight Board, which has sole discretion as to fiscal plan and budget
certification and the determination of whether and to what extent policies would impair or defeat
the purposes of PROMESA, as informed by the Governor’s articulated reasons for opposing the
recommendation. Section 201(b)(1)(K) does not distinguish between recommendations that are
ultimately approved by the Government and those that are rejected. Instead, Section
201(b)(1)(K) speaks only of recommendations that were “submitted” by the Oversight Board,
regardless of whether or not they were rejected by the Government. Consistent with this
structure, PROMESA also provides that a budget or fiscal plan that is certified by the Oversight
Board is “deemed approved by” the Governor. Id. § 2141(e)(2). Something that is “deemed
approved” by the Governor need not actually have been approved by the Governor.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

25

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 26 of 39

Desc: Main

That this powerful authority to make certain important policy determinations
ultimately rests with the Oversight Board does not, however, render the elected Governor
irrelevant or toothless. PROMESA requires the Oversight Board to look first to the elected
government for fiscal plan and budgetary direction, and requires extensive and specific
communications, with opportunities for revision of proposals, in the event the Oversight Board
considers a proposed plan or budget violative of PROMESA or of the fiscal plan, as the case may
be. The parties acknowledge that there were extensive discussions and negotiations prior to the
Oversight Board’s certification of its Fiscal Plan and Budget, and it is a testament to their hard
work and good faith that only five areas of disagreement are currently in contention. Indeed, as
Plaintiffs’ counsel noted at the Hearing, the Fiscal Plan spans “113” pages, and a “tremendous
amount of working together” and “of listening” has narrowed the current dispute to the five
issues. (Tr. at 128:25-129:4.)
Any fiscal plan provision adopting a recommendation over the Governor’s
objection can be certified only after the Governor has had a formal opportunity to make his
objections public and, indeed, to communicate any such objections to Congress and to the
President. Those bodies could take negative legislative action or exercise powers affecting the
composition of the Oversight Board were they to believe that the Governor had the better of the
argument. Furthermore, the Oversight Board, in adopting a policy over such objections, faces
the challenge of managing implementation of the policy in a way that garners the genuine
cooperation of Puerto Rico’s elected government and the citizens of the island who voted for
them, as well as the confidence of stakeholders and potential new investors whose interest in
doing business with the Commonwealth will be crucial to the Oversight Board’s ability to fulfill
its charge of providing a method to achieve access to the capital markets.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

26

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 27 of 39

Desc: Main

It is thus clear that the Oversight Board’s ability to impose a rejected policy is not
one to be exercised lightly. Nor is it, as a practical matter, one that is unconstrained. Although a
budget approved and adopted by the Oversight Board as compliant with a certified fiscal plan
becomes law insofar as it is in full force and effect without further action on the part of the
Governor or the Legislature, and inconsistent Commonwealth laws are preempted, the Oversight
Board has not been given power to affirmatively legislate. Thus, with respect to policy measures
that would require the adoption of new legislation or the repeal or modification of existing
Commonwealth law, the Oversight Board has only budgetary tools and negotiations to use to
elicit any necessary buy-in from the elected officials and legislators. Elected officials and
legislators, on the other hand, have the ability to obstruct implementation altogether, or
complicate it in such a way as to cripple Puerto Rico’s ability to use it to promote the needed
return to fiscal responsibility and access to capital markets. PROMESA is an awkward powersharing arrangement and, as the Court noted in its decision rejecting the Oversight Board’s
attempt to appoint a Chief Transformation Officer for PREPA, is “fraught with potential for
mutual sabotage.” In re Fin. Oversight & Mgmt. Bd. for P.R., 583 B.R. 626, 637 (D.P.R. 2017).
“These negative possibilities should,” as the Court stated in that opinion, “motivate the parties to
work together, quickly, for positive change” within the statutory structure in which neither of
them holds all of the cards. Id.
Although this governance structure infringes on the scope of the authority of the
elected Government, it was nonetheless contemplated and written into law by Congress. As the
parties have noted in their submissions, Congress considered imposing an even more powerful
board, similar to the one that was put in place for a time in the District of Columbia, when
developing the legislation that was ultimately enacted as PROMESA. While Congress revised

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

27

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 28 of 39

Desc: Main

the precursor of Section 205 to remove a provision that unambiguously allowed the Oversight
Board to override the Government’s judgment, it simultaneously added Section 201(b)(1)(K)
which, as described above, has a similar practical effect. Commentary in the legislative history
of PROMESA is generally consistent with the view that certified fiscal plans would be able to
adopt recommendations even absent approval by the Government. See H.R. Rep. No. 114-602
(2016), reprinted in 2016 WL 3124840, at *46 (“The Oversight Board may incorporate any
recommendations–even those not adopted by the Legislature or Governor–into the development
of Fiscal Plans.”); 162 Cong. Rec. S4690-02, S4695 (June 29, 2016) (statement of Sen.
Menendez), reprinted in 2016 WL 3544524 (“While this section calls these comments
recommendations, another section allows the board to ‘adopt appropriate recommendations’
submitted by the Oversight Board under section 205. So, in essence, they can adopt the very
essence of what they are saying is a recommendation.”); Puerto Rico Oversight, Management,
and Economic Stability Act (PROMESA): Markup Memorandum H.R. 5278 From Majority
Committee Staff of H. Comm. on Natural Resources, 114th Cong. 3 (2016) (“The Board’s broad
powers include: the imposition of legislative or executive recommendations . . . .”). 14 Plaintiffs’
argument that Section 303 of PROMESA, which reserves governance powers of a territory,
precludes mandatory adoption of rejected recommendations thus fails, because Section 303’s
reservation is explicitly made “[s]ubject to the limitations set forth in [Titles] I and II” of
PROMESA (48 U.S.C.A. § 2163 (West 2017)), and Section 202, which is part of Title II,

14

Although Puerto Rico’s non-voting member of the United States House of
Representatives submitted a statement asserting that the final versions of Section 201 and
Section 205 had removed a provision “empowering the oversight board to impose its
recommendations over the objection of the Puerto Rico government,” H.R. Rep. No. 114602 (2016), reprinted in 2016 WL 3124840, at *114, his comment did not acknowledge,
much less address directly, the simultaneous addition of Section 205(1)(1)(K) to the bill.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

28

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 29 of 39

Desc: Main

permits the Oversight Board to adopt recommendations without any requirement of gubernatorial
approval (id. § 2142).
The Court turns now to the viability of Plaintiffs’ attack on the Remaining
Challenged Provisions.
2. Remaining Challenged Provisions
i.

Budgetary Reprogramming

Section 11.2.1 of the Fiscal Plan is titled “Enforcement of the budget” and
provides, in relevant part, that any power of AAFAF, the OMB, or the Department of the
Treasury, “including the authorities granted under Act 230-1974, as amended, known as the
‘Puerto Rico Government Accounting Act’ (‘Act 230’), to authorize the reprogramming or
extension of appropriations of prior fiscal years is hereby suspended.” (Fiscal Plan § 11.2.1.)
Section 7 of the General Fund Resolution and Section 7 of the Special Resolution incorporate
this same language. Plaintiffs also challenge Section 10 of the General Fund Resolution, which
grants OMB the ability to withhold from any allocations to the executive agencies the amounts
necessary to pay for the pay-go contribution, unemployment insurance, or taxes withheld from
their employees, “when OMB determines that such a withholding is necessary to ensure
compliance with these obligations by the agencies concerned,” and provides that “[a]ny such
amounts withheld by OMB shall solely be reprogrammed to pay the corresponding outstanding
obligations related to pay-go contributions, unemployment insurance, or taxes withheld from
employees as allowed in” Section 10. (See General Fund Resolution §§ 7 and 10; Special
Resolution § 7.) Plaintiffs argue that these Challenged Provisions (i.e., Fiscal Plan Section
11.2.1, General Fund Resolution Sections 7 and 10, and Special Resolution Section 7) are merely
optional recommendations, because they “place controls on expenditures” and alter “the
management of the [Commonwealth’s] financial affairs” within the meaning of Section
180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

29

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 30 of 39

Desc: Main

205(a)(1) of PROMESA. (Opp’n at 22.) Plaintiffs also contend that these provisions of the
Fiscal Plan and the Challenged Budget Resolutions are beyond the powers granted to the
Oversight Board by PROMESA because they are inconsistent with the PROMESA provision that
specifically addresses reprogramming. That provision, set forth in PROMESA Section 204(c),
reads as follows:
If the Governor submits a request to the Legislature for the
reprogramming of any amounts provided in a certified Budget, the
Governor shall submit such request to the Oversight Board, which
shall analyze whether the proposed reprogramming is significantly
inconsistent with the Budget, and submit its analysis to the
Legislature as soon as practicable after receiving the request. . . .
The Legislature shall not adopt a reprogramming, and no officer or
employee of the territorial government may carry out any
reprogramming, until the Oversight Board has provided the
Legislature with an analysis that certifies such reprogramming will
not be inconsistent with the Fiscal Plan and Budget.
48 U.S.C.A. 2144(c) (West 2017) (emphasis added). Because the reprogramming provision of
the statute addresses only amounts that are provided for within a particular budget, Plaintiffs
argue that PROMESA does not prohibit the Governor and territorial officials from
reprogramming unused appropriations from prior fiscal years. (See Compl. ¶¶ 79, 88.)
Defendants, who define reprogramming as “moving funds from one budget appropriation to
another, or using funds appropriated in a prior year in a subsequent year,” argue that power to
restrict reprogramming of appropriations from prior years is inherent in the Oversight Board’s
power and obligation to certify that a fiscal plan satisfies Sections 201(b)(1)(A), (D), (F), and (G)
of PROMESA, and that its authority to include such restriction in a budget follows from Section
202(c)(1) of PROMESA. (Defs.’ Mem. at 17-18; see also Docket Entry No. 28, Defendants’
Reply (the “Reply”), at 11.)

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

30

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 31 of 39

Desc: Main

In Paragraph 79 of Count I of the Complaint, Plaintiffs seek a declaration that
“the suspension of Act 230 and reprogramming authorization for prior fiscal years under Board
Fiscal Plan section 11.2.1 . . . is a non-binding recommendation because (i) it is inconsistent with
the reprogramming standard under PROMESA section 204(c), which does not prohibit
reprogramming requests for prior fiscal years, (ii) inappropriately attempts to modify AAFAF’s
powers under Law 2-2017 and Act 230, among others, without following PROMESA’s
provisions for reviewing legislation, and (iii) is an inappropriate use of the Board’s budget power
to shift responsibilities of Government officials.” Paragraph 88 of Count II seeks a substantially
identical declaration regarding the corresponding budgetary resolution provisions. These aspects
of the Complaint fail as a matter of law to state claims upon which relief may be granted.
PROMESA grants the Oversight Board the exclusive authority to certify a fiscal
plan, and to certify a budget for periods covering one or more fiscal years. See 48 U.S.C.A. §§
2141(c), 2142(e) (West 2017). Among the mandatory purposes of the certified fiscal plan with
which the budget must comply are “to ensure the funding of essential public services,” “provide
for the elimination of structural deficits,” and “improve fiscal governance, accountability and
internal controls.” Id. § 2141(b). A budget must cover a specific fiscal year or years. It beggars
reason, and would run contrary to the reliability and transparency mandates of PROMESA, to
suppose that a budget for a fiscal year could be designed to do anything less than comprehend all
projected revenues and financial resources, and all expenditures, for the fiscal year. Since a
certified budget is in full effect as of the first day of the covered period, means and sources of
government spending are necessarily rendered unavailable if they are not provided for within the
budget. A prior year authorization for spending that is not covered by the budget is inconsistent
with PROMESA’s declaration that the Oversight Board-certified budget for the fiscal year is in

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

31

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 32 of 39

Desc: Main

full force and effect, and is therefore preempted by that statutory provision by force of Section 4
of PROMESA. Accordingly, the Fiscal Plan language regarding suspension of authority to
approve off-budget reprogramming may well be superfluous, and in any event merely has the
same effect as PROMESA’s explicit provisions. The exclusive scope of a certified budget also
makes pellucid the reason that Section 204(c)’s reprogramming provision speaks only to the
then-current fiscal year – the budget does not make any other resources available for
reprogramming.
Accordingly, Paragraph 79 of Count I and Paragraph 88 of Count II the
Complaint fail to state claims upon which relief may be granted and are for that reason dismissed
pursuant to Federal Rule of Civil Procedure 12(b)(6).
ii.

Automatic Budget Reductions

Section 12.3 of the Fiscal Plan provides the following:
If, after the third fiscal quarter of any fiscal year there remains
unrealized agency efficiency savings for any grouping relative to the
projected agency efficiency savings in the New Fiscal Plan for the
applicable fiscal year, the Oversight Board will automatically
reduce the budget for the corresponding grouping for the following
fiscal year in the amount equal to the unrealized agency efficiency
savings. In particular, if the Oversight Board determines that there
is material underperformance in agency efficiency savings relative
to the projections set forth in the New Fiscal Plan, intentional
workforce reductions will be necessary to meet the agency
efficiency savings targets set forth herein.
(Fiscal Plan at 68-69.) In Paragraph 81 of Count I of the Complaint, Plaintiffs assert that they
are entitled to a declaration that “the provision requiring automatic budget reductions for future
fiscal years (including intentional workforce reductions) under Board Fiscal Plan section 12.3 –
which ‘places controls on expenditures’ under PROMESA section 205(a)(1) – is a non-binding
recommendation because (i) the Board cannot mandate workforce reduction through the budget

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

32

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 33 of 39

Desc: Main

process, and (ii) nothing in PROMESA allows the Oversight Board to dictate personnel decisions
for the Commonwealth.” Defendants contend that the imposition of automatic budget reductions
is within the Oversight Board’s power to mandate “improve[ments in] fiscal governance,
accountability, and internal controls” pursuant to a fiscal plan under Section 201(b)(1)(F) of
PROMESA and its authority to impose certain expenditure reductions pursuant to PROMESA
Section 203(d)(1) in the event of noncompliance with a certified budget. (Defs.’ Mem. at 22;
Reply at 14.)
While it is true that PROMESA Section 201(b)(1)(F) provides that a certified
fiscal plan shall “improve fiscal governance, accountability, and internal controls” (11 U.S.C.A.
§ 2141(b)(1)(F) (West 2017)) and recommendations that the Oversight Board could adopt in a
Fiscal Plan include “placing controls on expenditures for personnel” (id. § 2145(a)(1)), Section
201(b) does not explicitly authorize building triggers into one budget that automatically restrict
appropriations in a subsequent budget. Section 203, on the other hand, explicitly provides a
protocol for assessing compliance with a budget on a quarterly basis, including assessment of
third quarter performance, that requires the Oversight Board to determine whether there is an
inconsistency between actual and budget figures, advise the territorial government to correct any
such inconsistency and certify any uncorrected inconsistency to the President, certain
Congressional Committees, the Governor, and the Legislature, and authorizes the Oversight
Board to make appropriate reductions in non-debt expenditures to true up actual revenues and
expenditures with approved budgetary provisions for the relevant period. For subsequent fiscal
years that are not covered by the certified budget, Section 202 of PROMESA requires the
interactive process of soliciting proposals and revisions from the Government before the

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

33

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 34 of 39

Desc: Main

Oversight Board can impose unilateral measures. Nothing in the statute authorizes automatic
budgetary or personnel restrictions across separate budgets.
Paragraph 81 of Count I thus states a claim upon which relief may be granted, and
Defendants’ Motion to dismiss the Complaint is denied insofar as it is directed to Paragraph 81
thereof.
iii.

Corrective Measures

Section 15 of the General Fund Resolution and Section 14 of the Special
Resolution provide that, “[i]f during the fiscal year the government fails to comply with the
liquidity and budgetary savings measures required by the [fiscal plan] certified by the Oversight
Board, the Government shall take all necessary corrective action, including the measures
provided in PROMESA sections 203 and 204.” (General Fund Resolution § 15; Special
Resolution § 14.) Additionally, Section 16 of the General Fund Resolution and Section 15 of the
Special Resolution provide that:
The Secretary of Treasury, the treasurer and Executive Directors of
each agency or Public Corporation covered by the New Fiscal Plan
for Puerto Rico certified by the Oversight Board, and the Director
of the OMB (or their respective successors) shall be responsible for
not spending or encumbering during fiscal year 2019 any amount
that exceeds the appropriations authorized for such year. This
prohibition applies to every appropriation set forth in this Joint
Resolution, including appropriations for payroll and related costs.
Any violation of this prohibition shall constitute a violation of this
Joint Resolution and Act 230.
(General Fund Resolution § 16; see also Special Resolution § 15.)
Plaintiffs argue that because the Budget, by invoking Act 230, makes spending
funds in excess of appropriations a misdemeanor and also alters Act 230 by making excess
spending a strict liability criminal offense, General Fund Resolution Section 15 and Special
Resolution Section 14 affect “the territory’s laws . . . on the operations of the territorial

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

34

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 35 of 39

Desc: Main

government” and are therefore recommendations pursuant to PROMESA Section 205(a)(7). 48
U.S.C.A. § 2145(a)(7) (West 2017). Plaintiffs also contend that General Fund Resolution
Section 16 and Special Resolution Section 15 exceed the Oversight Board’s powers under
PROMESA because they “(i) amend existing legislation to expand criminal penalties under Act
230 and (ii) go beyond the Board’s limited power to discipline Government officials under
PROMESA section 104(l).” (Opp’n at 21.) Defendants argue that the measures at issue serve to
“improve fiscal governance, accountability, and internal controls” in keeping with PROMESA §
201(b)(1)(F). (Defs.’ Mem. at 23.) Additionally, Defendants rely on PROMESA Sections 203
and 204 for the proposition that the Oversight Board has the authority to require corrective
measures in the event that the Governor fails to comply with a certified budget. (Id.) In any
event, Defendants argue, the penalties set forth in Section 16 of the General Fund Resolution and
Section 15 of the Special Resolution merely restate existing Commonwealth law under Act 230.
(Id. at 24.)
Paragraph 89 of Count II of the Complaint seeks a declaration that “the provision
in the Board Budget requiring the Government to take all necessary and corrective action to
comply with the Board Fiscal Plan measures under General Fund Resolution section 15 and
Special Resolution section 14 – which ‘places controls on expenditures’ under PROMESA
section 205(a)(1) is not enforceable because such provisions are (i) an impermissible attempt to
expand the Board’s limited budget enforcement powers under PROMESA section 203(d)(1), (ii),
inconsistent with the reprogramming procedure under [PROMESA] section 204(c), and (iii) an
abuse of the Board’s budget powers as a backdoor attempt to legislate.”
In Paragraph 90 of Count II, Plaintiffs assert that they are “entitled to a judicial
declaration . . . that the provision expanding the Board’s punishment powers for non-compliance

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

35

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 36 of 39

Desc: Main

under General Fund Resolution section 16 and Special Fund Resolution section 15 which would
‘effect the territory’s laws . . . on the operation of the territorial government’ is not enforceable
because (i) such provisions seek to impose Act 230 punishments on appropriation violations,
which include criminal punishments that can only be established by the Legislature, and (ii) the
Board’s punishment powers for budget non-compliance are limited to PROMESA section 104(l),
which does not include the power to apply criminal punishment to the actions of Government
officials.”
Sections 203 and 204 of PROMESA prescribe procedures and limited remedies in
the event of noncompliance with certified budgets and fiscal plans. Neither authorizes the
Oversight Board to write into the law of Puerto Rico a general declaration that violations of the
provisions of the appropriations provisions of the budget are an independent violation of law
and, while PROMESA specifies certain consequences upon the Commonwealth’s failure to
correct an inconsistency of expenditures versus the budget, the statute itself does not impose
affirmative obligations on the Commonwealth or any or its officers or agents to take corrective
action. Nor does PROMESA, by virtue of its provision rendering an Oversight Board-certified
budget effective, create new liability under Puerto Rico law for violations of the budget.
Defendants disclaim any intent effectively to amend Act 230 (the criminal provision) or claim
prosecutorial authority, asserting at oral argument that the resolutions merely state the Oversight
Board’s position that a violation of the certified budget is a crime within the meaning of the
statute. (See Reply § III.D; Tr. at 113:19-25.) Nonetheless, these provisions of the Resolutions,
read in the light most favorable to Plaintiffs, appear to claim powers and impose consequences in
excess of those authorized by PROMESA. Accordingly, Paragraphs 89 and 90 Count II state

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

36

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 37 of 39

Desc: Main

claims upon which relief may be granted and Defendants’ Motion is denied to the extent it is
directed to those paragraphs.
3. Remaining Relief Sought
The remaining relief-related provisions of the Complaint seek declarations of a
more general nature. Paragraph 78 of Count I demands a declaration that “the rejected policy
recommendations in the Board Fiscal Plan are non-binding recommendations and that the
Government is not obligated to implement any of these policies, and that the Oversight Board
may not take any actions to force compliance with such recommendations.” As explained above,
the Oversight Board is not precluded from adopting the rejected policy recommendations in a
fiscal plan. The Complaint therefore fails to state a claim upon which relief may be granted with
respect to the Challenged Provisions, and Defendants’ Motion is granted insofar as it is directed
to the claim asserted in Paragraph 78 of Count I.
In Paragraph 83 of Count I and Paragraph 91 of Count II, Plaintiffs essentially
seek declarations that any fiscal plan or budgetary provision that the Governor determines in his
discretion is a policy recommendation and rejects, now or in the future (whether identified in the
Complaint or otherwise) is not binding on the Commonwealth and need not be implemented by
the Governor. For substantially the reasons already explained above, this broad proposition fails
to state a claim upon which relief may be granted, and Defendants’ Motion is granted insofar as
it is directed to these aspects of Counts I and II.
Plaintiffs’ final declaratory judgment claim is set forth in Paragraph 92 of Count
II, which seeks a declaration “that any provisions of the Board Budget that exceed the Board’s
powers under PROMESA § 202 are invalid.” Plaintiffs do not specify what provisions are
challenged in this connection, nor do they identify the powers with which they are concerned.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

37

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 38 of 39

Desc: Main

Plaintiff’s Complaint is, accordingly, too abstract in this regard to frame a justiciable case or
controversy or, to the extent it can be read to satisfy the constitutional requisite for standing, it
lacks sufficient grounding in specific factual pleading to state plausibly a claim upon which relief
may be granted. The declaratory judgment claim asserted in Paragraph 92 of the Complaint is,
accordingly, dismissed.
Plaintiffs’ final Count pleads an entitlement to injunctive relief “prohibiting the
Defendants from implementing and enforcing the Oversight Board’s policy recommendations
contained in the Board Fiscal Plan and Board Budget . . . .” (Paragraph 93, Count III.) Because
Plaintiffs have stated some claims upon which relief may be granted, the possibility of propriety
of injunctive relief is not so remote that dismissal of Count III is warranted at this juncture.
Defendants’ Motion is denied insofar as it is directed to Count III of the Complaint.

CONCLUSION
For the foregoing reasons, the Motion is granted pursuant to Federal Rule of Civil
Procedure 12(b)(6) insofar as it seeks dismissal of the claims asserted in Paragraphs 78, 79, and
83 of Count I, and those asserted in Paragraphs 88 and 91 of Count II. The Motion is granted
pursuant to Federal Rule of Civil Procedure 12(b)(1) insofar as it seeks dismissal of the claims
asserted in Paragraphs 80 and 82 of Count I and Paragraphs 87 and 92 of Count II. Defendants’
Motion is denied in all other respects. This adversary proceeding remains referred to Magistrate
Judge Dein for general pretrial management.

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

38

Case:18-00080-LTS Doc#:40 Filed:08/27/18 Entered:08/27/18 11:42:37
Document Page 39 of 39

Desc: Main

This Opinion and Order resolves Docket Entry Nos. 16 and 31.

SO ORDERED.
Dated: August 27, 2018
/s/ Laura Taylor Swain
LAURA TAYLOR SWAIN
United States District Judge

180827 CORRECTED OP AND ORD RE GOV LAWSUIT.DOCX VERSION AUGUST 27, 2018

39

